September 2006
Report No. 06-021


FDIC’s Emergency Response Plans




        EVALUATION REPORT
             eral
                                                                                              Report No. 06-021
                                                                                               September 2006

                                       FDIC’s Emergency Response Plans
                                       Results of Evaluation

                                       The FDIC’s emergency response policy provides a framework from
                                       which comprehensive ERPs have been established for HQ (including
Background and Purpose of
                                       divisional ERPs for specific functional areas of concern) and the two
Evaluation
                                       regional offices we reviewed. In addition, the ERPs we reviewed
The Federal Emergency                  address most of the recommended emergency response elements
Management Agency (FEMA)               contained in federal agency criteria for emergency response planning.
issued Federal Preparedness            However, FDIC senior management, particularly in HQ, could do more
Circular 65, which provides            to “set the tone” regarding the importance of emergency response
guidance for agencies in               through more public involvement in, and support for, emergency
developing contingency plans that      response plans. Further, additional guidance is needed on the following
include emergency planning for         aspects of the FDIC’s emergency response policy and the ERPs we
the safety and security of agency      reviewed:
personnel.
                                          •   documenting management review and approval,
The FDIC’s Emergency
Preparedness Program provides             •   updating ERPs on a regular basis so they remain current,
the FDIC’s emergency response             •   assigning and maintaining a current list of Floor
policy and requires that emergency            Marshals/Wardens,
response plans (ERPs) be                  •   communicating emergency information,
established in Washington Area            •   conducting evacuation and shelter-in-place drills,
Headquarters Offices (HQ) and in          •   developing shelter-in-place procedures,
each of the regional offices. The
                                          •   inventorying and maintaining emergency food and water
ERPs document the FDIC’s
procedures and structure to ensure            supplies,
the safety and security of all FDIC       •   providing information on available first-aid and medical
personnel during an emergency.                response,
                                          •   incorporating the child-care facility ERP into the HQ ERP, and
The FDIC’s Division of                    •   developing additional procedures for employees with disabilities.
Administration (DOA) Security
Management Section conducts            This additional guidance would help the FDIC establish an emergency
periodic training and maintains a
                                       response policy and ERPs that assure the safety and security of FDIC
Security Web site to ensure that all
staff are aware of their
                                       personnel across a wide range of potential emergencies.
responsibilities during an
emergency.                             Recommendations and Management Response

Our objective was to evaluate the      We made two recommendations to strengthen the emergency response
extent of the FDIC’s progress in       policy and the maintenance, communication, and content of the FDIC’s
developing and implementing            ERPs. DOA concurred with both recommendations and has planned or
comprehensive ERPs. The scope          initiated actions that are responsive to both recommendations.
of our evaluation included the
FDIC’s HQ facilities, Dallas
Regional Office, and New York
Regional Office.

To view the full report, go to
www.fdicig.gov/2006reports.asp
                               TABLE OF CONTENTS


BACKGROUND                                                    1

     Emergency Response Plans                                 2
FDIC’S EMERGENCY RESPONSE POLICY AND PLANS                    3

     Comparison of the FDIC’s ERP Policy and ERPs to Other    3
     Federal Agencies’ Guidance

     Senior Management Involvement and Support               5

     Emergency Response Organization                          6

     Emergency Response Plan                                 7

     ERP Communication and Awareness                          9

     Evacuation                                              11

     Shelter-in-Place                                        12

     First Aid                                               13

     Child-Care Facilities                                   14

     Disabled Persons                                        15

RECOMMENDATIONS                                              16

CORPORATION COMMENTS AND OIG EVALUATION                      17

APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                18
APPENDIX II: CORPORATION COMMENTS                            21
APPENDIX III: MANAGEMENT RESPONSES TO                        26
              RECOMMENDATIONS

TABLE:
Comparison of FDIC’s Policy and ERPs to Other Federal         4
Agency Guidance
ACRONYMS

BCP        Business Continuity Plan
COOP       Continuity of Operations
CPR        Cardiopulmonary Resuscitation
DOA        Division of Administration
DOL        Department of Labor
DRO        Dallas Regional Office
ERP        Emergency Response Plan
FEMA       Federal Emergency Management Agency
FPC        Federal Preparedness Circular
GSA        General Services Administration
HQ         Washington Area Headquarters Offices
Hspd       Homeland Security Presidential Directive
NYRO       New York Regional Office
ODEP       Office of Disability Employment Policy
OEP        Occupant Emergency Program
OSHA       Occupational Safety and Health Administration
SMS        Security Management Section
Federal Deposit Insurance Corporation                                                                        Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                         Office of Inspector General



DATE:                                     September 22, 2006

MEMORANDUM TO:                            Arleas Upton Kea, Director
                                          Division of Administration




FROM:                                     Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Emergency Response Plans
                                          (Report No. 06-021)

This report presents our evaluation of the FDIC’s Emergency Response Plans (ERPs) for
Washington Area Headquarters Offices (HQ), the Dallas Regional Office (DRO), and the New
York Regional Office (NYRO). Our objective was to evaluate the extent of the FDIC’s progress
in developing and implementing comprehensive ERPs. The ERP documents the FDIC’s
procedures and structure to ensure the safety and security of personnel in the event of an
emergency.

Our original objective was to evaluate the extent of the FDIC’s progress in developing and
implementing a comprehensive Emergency Operations Plan, which consists of the Business
Continuity Plan (BCP) and ERPs. However, we limited the scope of this review to the ERPs,
and we plan to address the BCP in a future evaluation. Our evaluation focused on internal
aspects of the HQ, NYRO, and DRO emergency response policy and plans (i.e., protection and
safety of FDIC employees and facilities) and not the external and interagency aspects.
Additional details on our objective, scope, and methodology are provided in Appendix I.

BACKGROUND

The Federal Emergency Management Agency (FEMA) issued Federal Preparedness Circular 65
(FPC 65), Federal Executive Branch Continuity of Operations (COOP), dated June 15, 2004, to
provide guidance to federal executive branch departments and agencies for use in developing
emergency plans and programs for the continuity of operations. Each agency is responsible for
designing, updating, and carrying out comprehensive plans that include emergency planning for
the safety and security of agency personnel.

With the issuance of FDIC Circular 1500.5, FDIC Emergency Preparedness Program, on
December 28, 2004, the FDIC formally established a corporate-wide program to ensure the
safety and security of personnel and the continuity of business operations. Section 6.c. of the
circular specifically addresses ERP responsibilities and guidelines and supports emergency
preparedness planning guidance as outlined in FPC 65. Circular 1500.5 requires the FDIC’s HQ
and regional offices to develop ERPs that document the procedures and structure for a
coordinated response to an emergency and focus on mitigating injuries and the loss of life of
FDIC personnel, contractors, and visitors at FDIC locations.

The Division of Administration’s (DOA) Assistant Director, Security Management Section
(SMS), is responsible for the development and maintenance of emergency preparedness plans at
HQ and all regional offices, to include developing an ERP and reviewing HQ and regional office
ERPs for final approval by the Chief Operating Officer, or his designee.

The Assistant Director indicated that SMS is active in a number of interagency and local
emergency preparedness committees and forums including:

•   the Washington Area Security Managers Association,
•   the Interagency Security Committee,
•   the Department of Homeland Security COOP Working Group,
•   monthly meetings hosted by the Joint Federal Committee,1 and
•   quarterly meetings of the Arlington County Office of Emergency Management.

Emergency Response Plans

The HQ and regional office ERPs outline the responsibilities of all personnel during an
emergency. ERPs contain information on emergency communication and notification systems
and procedures for responding to different types of emergencies. SMS is responsible for
developing the HQ ERP; and the DOA Regional Manager in each regional office is responsible
for developing the regional office ERP. Several other FDIC divisions, including the Divisions of
Finance, Supervision and Consumer Protection, Resolutions and Receiverships, and Information
Technology have also established plans for specific functional areas of concern.

To ensure that information is communicated in a timely manner during an emergency, the HQ
ERP includes procedures for “Situation Rooms,” which are located in each HQ building and
regional office. If an emergency occurs, division/office directors report to the nearest Situation
Room and, through a teleconference bridge, tie into all other Situation Rooms. Directors are
then able to obtain up-to-the-minute information and gain insight into the actions they must take
to protect FDIC personnel.

As of July 2006, all FDIC office space in HQ and the San Francisco Regional Office is owned by
the FDIC; all other regional office space is leased. Nevertheless, the FDIC is responsible for
providing ERPs for its employees in both owned and leased facilities. The ERPs are available to
FDIC employees on the FDIC Web site for their review. Additionally, SMS and DOA Facilities
personnel conduct periodic training sessions for HQ and regional office personnel designed to
ensure that all staff understand their responsibilities during an emergency, and each location
periodically conducts emergency evacuation and shelter-in-place drills.2



1
  The committee, chaired by the Department of Homeland Security, meets to discuss emergency preparedness issues
in the National Capital Region.
2
  Shelter-in-place means going to a designated small, interior room with no or few windows, and taking refuge there.




                                                        2
FDIC’S EMERGENCY RESPONSE POLICY AND PLANS

The FDIC’s ERP policy provides a framework from which comprehensive ERPs have been
established for HQ (including divisional ERPs for specific functional areas of concern) and the
two regional offices we reviewed. In addition, the ERPs we reviewed address most of the
recommended emergency response elements contained in federal agency criteria for emergency
response planning. However, FDIC senior management, particularly in HQ, could do more to
“set the tone” regarding the importance of emergency response through increased
communication to employees. Further, additional guidance is needed for the following aspects
of emergency preparedness in the FDIC’s emergency response policy and the ERPs we
reviewed.3

    •   documenting management review and approval,
    •   updating ERPs on a regular basis so they remain current,
    •   assigning and maintaining a current list of Floor Marshals/Wardens,4
    •   communicating emergency information,
    •   conducting evacuation and shelter-in-place drills,
    •   developing shelter-in-place procedures,
    •   inventorying and maintaining emergency food and water supplies,
    •   providing information on available first-aid and medical response,
    •   incorporating the child-care facility ERP into the HQ ERP, and
    •   developing additional procedures for employees with disabilities.

This additional guidance, as well as more public senior management involvement in, support for,
and emphasis on the importance of emergency response planning, would be beneficial to the
FDIC in remaining prepared to protect its employees in the event of a significant incident or
emergency.

Comparison of the FDIC’s ERP Policy and ERPs to Other Federal Agencies’ Guidance

We compared the Corporation’s ERP policy and the HQ, DRO, and NYRO ERPs to the
following federal agencies’ guidance:

    •   FEMA guidance in FPC 65,
    •   U.S. General Services Administration’s (GSA) Occupant Emergency Program Guide
        (OEP), including child-care center guidance;
    •   Occupational Safety and Health Administration (OSHA) regulations, particularly section
        1910.38, Emergency Action Plans; and
    •   U.S. Department of Labor (DOL), Office of Disability Employment Policy (ODEP)
        publication, Effective Emergency Planning: Addressing the Needs of Employees with
        Disabilities.


3
 Not all of these enhancements were needed at each site.
4
 Floor Marshals and Floor Wardens are employees who have volunteered to assist in emergencies. They oversee
evacuation or shelter-in-place efforts for their respective floor.




                                                     3
  Based on our comparison, we concluded that the FDIC’s emergency response policy and the HQ,
  DRO, and NYRO ERPs include most of the elements contained in the federal agency guidance
  that we used as evaluation criteria but could be revised to include additional procedures and best
  practices.

  The following table summarizes the most significant emergency response requirements
  contained in federal agency guidance. The remaining report sections discuss items not included
  in the ERP (indicated in the table as “No”) or needing improvement (indicated in the table as
  “Yes-NI”).

  Comparison of FDIC’s Policy and ERPs to Other Federal Agency Guidance
                                                                              IS ELEMENT ADDRESSED?
                    CRITERIA                             SOURCE
                                                                      ERP          HQ      NYRO   DRO
                                                                     POLICY        ERP      ERP   ERP
  Senior Management Involvement and Support
The Chief Executive should set the tone by                FEMA
authorizing planning to take place and directing         Guidancea
senior management to get involved.                                   Yes-NI        N/Ab    N/A        N/A
         Emergency Response Organization
An emergency organization is established,
preferably following existing lines of authority.          GSA         Yes         Yes     Yes        Yes
The ERP includes a sign-off sheet of the approving
officials.                                                GSA          No          No      No         No
The plan identifies responsibilities of key personnel.    OSHA         Yes         Yes     Yes        Yes
Emergency organization members are designated by
position rather than person.                               GSA         Yes         Yes     Yes        Yes
The authority and responsibilities of guards under
contract are defined.                                      GSA         Yes         Yes     Yes        Yes
             Emergency Response Plan
The ERP is updated on a regular schedule to ensure
human capital information and resources remain
current and key emergency response personnel are          FPC 65       No          No      Yes        Yes
familiar with their responsibilities.
The ERP includes procedures for how employees
should respond to different types of emergencies
such as fire, chemical, explosion, weather, etc.          OSHA         Yes         Yes     Yes        Yes
In leased space, the responsibilities of the
owner/lessor are stated.                                   GSA         No          N/A     Yes        Yes
        ERP Communication and Awareness
An ERP should be kept where employees can refer
to it at convenient times.                                OSHA        Yes-NI      Yes-NI   Yes        Yes
Organizations conduct employee forums to discuss
emergency procedures and solicit employee
comments.                                                 FPC 65      Yes-NI      Yes-NI   Yes    Yes-NI
                  Command Center
A Command Center is established.                           GSA         Yes         Yes     Yes        Yes
The ERP includes circumstances and procedures for
emergency organization members to report to the
Command Center.                                            GSA         Yes         Yes     Yes        Yes




                                                           4
                                                                       IS ELEMENT ADDRESSED?
                   CRITERIA                           SOURCE
                                                                ERP          HQ       NYRO     DRO
                                                               POLICY        ERP       ERP     ERP
     IN THE EVENT OF AN EMERGENCY
                 Immediate Response
Procedures for reporting a fire or other emergency.    GSA       Yes         Yes       Yes      Yes
Procedures for reporting a bomb threat.                GSA       Yes         Yes       Yes      Yes
Procedures for employees who remain in FDIC
facilities to operate critical plan operations.        OSHA      Yes         Yes       Yes      Yes
                      Evacuation
Procedures include evacuation under different types
of emergencies and different evacuation routes.        OSHA     Yes-NI      Yes-NI     Yes      Yes
Procedures to account for all employees after
evacuation.                                            OSHA      Yes         Yes       Yes      Yes
                   Shelter-in-Place
Plans include conditions under which employees
should shelter-in-place.                               OSHA      Yes         Yes       Yes      Yes
Shelter-in-place sites are identified.                 DOL-      Yes         Yes       No       Yes
                                                       ODEP
Procedures to account for all employees during a
shelter-in-place.                                     OSHA        Yes          Yes     Yes      Yes
ERP contains guidance on food and water supplies
to maintain for extended shelter-in-place situations. FPC 65     No            No      No       No
                       First Aid
The ERP includes procedures for handling serious       GSA
injury or illness.                                               No          Yes-NI    Yes     Yes-NI
The ERP explains how building occupants can            GSA       No          Yes-NI    Yes     Yes-NI
obtain first aid.
                 Child-Care Facilities
The ERP contains an appendix specifically devoted
to the child-care center.                              GSA       No            No      N/A      N/A
                   Disabled Persons
The ERP contains procedures for evacuation or
sheltering of the handicapped.                         GSA        Yes          Yes    Yes-NI   Yes-NI
The ERP includes procedures for persons with           DOL-
varying disabilities (i.e., vision, mobility,         ODEP      Yes-NI       Yes-NI   Yes-NI   Yes-NI
developmental, hearing).
Plans facilitate communication with all staff and
visitors, including those who are deaf or have         DOL-
communication difficulties.                           ODEP        Yes          Yes     Yes      Yes
  Source: Summary of OIG Analysis.
  a
    Emergency Management Guide for Business and Industry, FEMA 141, October 1993.
  b
    Not applicable.

 Senior Management Involvement and Support

 The Chief Executive should set the tone by authorizing planning to take place and directing
 senior management to get involved. FEMA’s Emergency Management Guide for Business and
 Industry states that emergency management requires upper management support and states that
 “the chief executive should set the tone by authorizing planning to take place and directing
 senior management to get involved.” Employees in an organization must be convinced that




                                                       5
emergency response is a high priority--and the persons generally best able to convince them are
the organization’s senior managers, and in particular, the chief executive. Public support by the
chief executive and other senior managers can help ensure the attention and cooperation of
employees. The FDIC HQ facilities and its regional offices are located in major metropolitan
areas that could be susceptible to natural disasters or terrorist attacks. As a result, the
Corporation must remain vigilant in its emergency response planning.

As discussed in our report, senior management has placed a greater emphasis on emergency
response in the past several years and has made progress in establishing a comprehensive
emergency response policy and plans. In addition, senior management took several steps to
increase awareness and preparedness, such as referencing or including initiatives related to the
Emergency Preparedness Program in the FDIC Strategic Plan 2005-2010 and the 2005 and 2006
Annual Performance Plans, carrying out table-top exercises that simulate likely emergency
scenarios and responses, and providing Quarterly Status Reports for the Emergency Preparedness
Program to the FDIC Board of Directors. Further, we saw evidence that division directors and
field managers had periodically discussed ERP with their respective staffs. However,
communication from senior management to FDIC employees regarding the ERPs has been
infrequent. In addition, the Corporation has been slow in completing and communicating certain
elements of ERPs at its new Virginia Square facility, progress could be better in completing and
providing on-line training to employees, and there is increased risk that employees are becoming
complacent about attending ERP training and volunteering for key ERP positions.

More public senior management involvement in, support for, and emphasis on the importance of
emergency response planning would be beneficial to the FDIC in maintaining momentum and
interest in the ERP so the Corporation will remain prepared to protect its employees in the event
of a significant incident or emergency.

Emergency Response Organization

The ERP should include a sign-off sheet of the approving officials. GSA’s OEP guidance
recommends documentation of the ERP, along with the signature sheet of the approving official,
indicating senior management acceptance of the plan.

The ERP is a component of the FDIC Emergency Preparedness Program and as such, should be
reviewed by the Assistant Director, SMS, for final approval by the Chief Operating Officer or his
designee. However, the ERP policy does not require documented approval of ERPs, and none of
the ERPs we reviewed included a sign-off sheet for the approving official’s signature, indicating
acceptance of the plan. As a result, the involvement of senior management in the development
and approval of the ERPs we reviewed was unclear.

The HQ ERP, dated September 12, 2003, provides that the Director, DOA, acting on behalf of
the Chairman of the FDIC, is responsible for enacting the ERP. The NYRO ERP, dated
December 1, 2005, provides that the DOA Regional Manager (or designee) authorizes the
execution of the ERP. The DRO ERP, dated January 2006, provides that the FDIC Chairman (or
designee) authorizes the execution of the ERP. While management officials told us the HQ ERP
was vetted through DOA senior management and the Chief Operating Officer, we did not see




                                               6
evidence that the appropriate senior managers approved the ERPs that we reviewed. Revising
the FDIC’s ERP policy to require the signature and date of the ERP approving official would
emphasize the involvement of senior management and strengthen management control for
review and approval of the ERP.

Emergency Response Plan

The ERP should be updated on a regular schedule to ensure that human capital information
and resources remain current, and key emergency response personnel are familiar with their
responsibilities. FPC 65 states that agency managers should (1) review regularly and update
human capital information and resources to assure that the agency's policies remain current and
relevant to changing environments or evolving threats and (2) develop, review, and update
emergency guidelines as needed.

The FDIC’s ERP policy does not provide a standard timeframe for updating ERPs. Emergency
contact information in the DRO and NYRO is routinely updated every 6 months; however, the
HQ ERP has not been updated since September 2003. As a result, much of the information in
the HQ ERP is not current in relation to the names and telephone numbers of emergency contact
officials, floor marshals, and locations of rooms for sheltering-in-place. The ERP may also not
reflect current guidance and best practices identified since it was last updated.

         Floor Marshal/Warden Programs. Procedures for Floor Marshal/Warden programs
need improvement to ensure that an adequate number of Floor Marshals/Wardens are maintained
and that they attend training to ensure they are familiar with responsibilities and emergency
procedures. The FDIC’s ERP policy provides that ERPs should address the roles and
responsibilities of Floor Marshals. As implemented at the FDIC, the Floor Marshals/Wardens
are FDIC employees who have volunteered to facilitate an evacuation or shelter-in-place during
an emergency and are key members of the Emergency Response Team. They are responsible for
ensuring everyone on their floor is prepared for emergency situations and distributing emergency
supplies and water as needed. The Floor Marshals/Wardens are also responsible for ensuring
their floors are evacuated, when necessary, obtaining a head count of evacuated employees from
supervisors, and reporting the results to SMS.

        HQ Floor Marshal Program. As of April 2006, the Floor Marshal Assignment listing in
HQ had not been verified since the ERP was last updated in September 2003. As a result, the
FDIC does not have consistent coverage of the HQ facilities because many employees have
either been relocated or have left the FDIC since their initial assignment. We compared the
Floor Marshal assignment listing on the FDIC’s Emergency Web site on April 1, 2006 with the
FDIC’s employee directory and determined that only 53 of the 86 Floor Marshals were working
on their assigned floor. Further, we found that 12 of 86 employees assigned as Floor Marshals
no longer worked at the FDIC.

We also randomly selected 17 (20 percent) Floor Marshals to obtain information regarding their
training, supplies, and knowledge of FDIC Emergency Web site information. SMS provided
emergency supplies, including an emergency food and water kit, to all Floor Marshals.
However, of the 17 Floor Marshals we interviewed, only 11 reported having the emergency food
and water kit. Also, nine Floor Marshals reported that they had not attended any emergency



                                              7
training or briefing in over 2 years. SMS has provided two emergency training briefings in HQ
since January 2004; however, attendance by Floor Marshals is not required, and SMS has not
documented who attended those sessions. One of the seventeen Floor Marshals we interviewed
had retired from the FDIC in April 2000 and returned as a contractor in 2004 and did not know
he was still listed as a Floor Marshal. One other person responded that she had never accepted
the responsibility and did not consider herself to be a Floor Marshal.

SMS staff told us that they rely on the Floor Marshals to contact them when they relocate but
that this procedure is not included in the ERP. SMS was planning to update the Floor Marshal
assignment listing after the relocation of the FDIC’s Washington employees to Virginia Square,
Arlington, Virginia, in the first quarter of 2006. SMS also expressed concern that employees
have not been volunteering to be Floor Marshals and is exploring other means of providing Floor
Marshal coverage of the facilities, such as mandatory Floor Marshal assignments. However,
DOA had not advised FDIC employees of the need for Floor Marshal volunteers.

        DRO Floor Warden Program. We found that the DRO ERP Floor Warden program was
substantially current, provided specific Floor Warden duties, and included training requirements.
However, we found that assigned Floor Wardens have not consistently attended ERP training as
prescribed or read the ERP as required. Although the ERP provides procedures for security
personnel to review the Floor Warden list on a quarterly basis, this process would be more
effective if it also required the Floor Wardens to notify security personnel when they relocate to
a new floor or leave the DRO.

We compared the ERP Floor Warden listing on the DRO Web site to the office locations of each
Floor Warden listed in the FDIC employee directory. Of the 58 wardens assigned, 51 were
correctly listed as Wardens on the floor for which they were currently assigned. Seven of the
individuals were no longer on their assigned floor, and two of the seven wardens no longer
worked at the DRO. The FDIC DRO Facilities Manager stated that DRO was in the process of
verifying the Floor Warden listings floor by floor. DRO was contacting everyone on the list to
determine whether the individuals still wanted to be a Floor Warden and was asking for
volunteers on the floors where additional Floor Wardens were needed. Due to the recent
downsizing in the DRO and numerous relocations of staff between floors, DRO was conducting
this process once the moves had been completed.

The DRO ERP includes the responsibilities of the Floor Wardens in the event of an emergency
and provides that Floor Wardens will attend training on a biannual basis. We surveyed a sample
of 12 of the 58 wardens and found that only 6 of the 12 had read the ERP and only 1 had
attended a briefing or other ERP training in the past year. Notwithstanding, 11 of the 12
employees we contacted were able to describe their Floor Warden responsibilities. The
remaining employee was not aware that he had been assigned as a Floor Warden and indicated
that he was not prepared to assume this responsibility. Additionally, 7 of the 12 employees
suggested that more frequent briefings or meetings among the DRO Floor Wardens would be
beneficial.

       NYRO Floor Warden Program. The NYRO ERP does not include procedures for
maintaining the Floor Warden Program. Management of Floor Wardens is the responsibility of
the Facilities Manager who also coordinates employee relocation for the NYRO. We found the



                                               8
Floor Warden assignment listing in the NYRO ERP to be current, those assigned as Floor
Wardens to understand their responsibilities, and supplies to be consistently maintained. In
accordance with the New York City Fire Code, Floor Wardens are required to sign a log in the
main lobby of the building each day to indicate whether they are present in the event of an
emergency. Further, the NYRO ERP specifically lists the duties of Floor Wardens both before
and during an emergency.

The NYRO Floor Warden program includes 28 employees designated as Wardens, Deputy
Wardens, Searchers, or Buddies.5 We verified that each of those assigned to one of these
positions currently worked on the floor to which they were assigned. We interviewed a random
sample of 10 (35 percent) of these individuals to determine the timing of the most recent ERP
briefing or training they had attended, the status of supplies they maintained, and their
understanding of their duties. None had attended an FDIC-sponsored ERP briefing or training
session in the past year; however, 7 of the 10 employees reported that they had attended a
briefing by the New York City Fire Department. All 10 employees reported that they had the
emergency supply kit provided by the FDIC, and all were able to describe their respective
emergency response duties. All those we spoke to gave the NYRO ERP a good rating and
indicated that all employees were cooperative. Five of the ten employees we spoke with
recommended more briefings or meetings scheduled by the FDIC.

ERP Communication and Awareness

An ERP should be kept where employees can refer to it at convenient times. Federal agency
guidance and FDIC Circular 1500.5 suggest that emergency information is critical to the safety
of employees in an emergency. FEMA FPC 65 states that agency managers are responsible for
ensuring that employees have a clear understanding of what they are to do in an emergency.

Access to the ERPs differed between HQ and the two regional offices in our evaluation. While
DRO and NYRO provide the complete ERP on their respective Web sites, HQ provides only a
summary of the ERP. Furthermore, although DIT has installed a Security Hot Link icon on
FDIC employees’ computers, many Floor Marshals we interviewed were not aware this Hotlink
exists, and employees have not been periodically reminded that the link is available.

In FDIC HQ, only a summary of the ERP is available for FDIC employees on the FDIC Web
site. According to SMS personnel, the complete ERP is not maintained on the Web site because
it includes the home telephone numbers of Emergency Response Team members and other
detailed procedures that were determined by SMS to be unnecessary for employees in an
emergency. The summary information provides evacuation procedures that employees should
follow for specific building emergencies, procedures for partial evacuation with zoned alarms,
locations of shelter-in-place areas and assembly areas, Floor Marshal listings, and other building-
specific, critical information. SMS personnel determined that this information is critical for
employees to have in an emergency. However, we identified other important information in the
complete ERP that is not provided on the Emergency Web site. For example, ERP procedures
for assisting individuals with disabilities and procedures for specific emergencies such as gas

5
 Deputy Wardens, Searchers, and Buddies assist the Warden with duties such as searching the premises and
assisting disabled persons.




                                                      9
line ruptures; violent behavior; chemical, biological, or radiological incidents; and tornados and
other severe weather are not included on the Web site.

In 2003, the Division of Information Technology installed a “Security Hot Link” icon on the
FDIC’s HQ computers that provides immediate access to the FDIC Emergency Web site. The
Emergency Web site provides information and additional Web sites for employees in the
Washington area to obtain emergency information. The Web site includes a summary of the
ERP, Emergency Preparedness Status Reports, a link to the Washington, D.C., Emergency
Information Center, emergency telephone numbers, Washington Area Transit System alerts,
emergency pack information, and other information related to FDIC security. The Web site can
be a valuable tool for employees in the event of an emergency and to provide routine emergency
awareness. However, we found that only 8 of 17 Floor Marshals were aware that the Security
Hot Link existed.

SMS did not maintain information on how or when the existence of the Security Hot Link had
been communicated to FDIC employees. However, we confirmed that there has been no
communication to FDIC employees, since at least 2004, that the Hot link exists or that other
emergency information is available. Additionally, the Security Hot Link on the NYRO
computers links to information concerning HQ which could be confusing to employees not
located in the Washington area in the event of an emergency. Computers at NYRO and DRO do
not have a Security Hot Link to facilitate quick access to regional emergency information.

Organizations should conduct employee forums to discuss emergency procedures and solicit
employee comments. FPC 65 states that employees should be encouraged to familiarize
themselves with the emergency procedures in place at their agency, as well as the means of
notification that an agency will use to inform and instruct employees. According to FPC 65,
providing emergency information to employees on a recurring basis is an important element of
emergency preparedness. Activities to support communications with employees may include:

    •   convening town hall meetings;
    •   communicating plans and changes, including recurring distribution of emergency
        guides; and
    •   working with unions to support and strengthen communication activities.

Further, FDIC Circular 1500.5 states that employees are responsible for attending FDIC-
sponsored training events and understanding their responsibilities during an emergency.

DOA provides periodic ERP briefings for FDIC employees. During 2005, DOA announced and
conducted briefings in May and November. However, according to SMS personnel, attendance
at these briefings was poor. Facilities personnel in DRO provided emergency information
briefings in February 2005 and April 2006; however, only Floor Wardens were notified of the
briefing in 2005. In the NYRO, the building manager provides two training sessions each year in
accordance with the New York City Fire Code. NYRO facilities personnel told us that
attendance is excellent during these sessions. We discussed employees’ attendance with SMS
personnel who expressed their concern over the lack of employee interest in emergency
preparedness, particularly at HQ. SMS personnel stated that to facilitate FDIC employee ERP




                                                10
awareness, they are working on a computer-based training module that will be mandatory for all
FDIC employees to complete annually. SMS plans to implement the training module in
November 2006.

Evacuation

Procedures should address evacuation under different types of emergencies and different
evacuation routes. GSA's Occupant Emergency Program Guide provides that ERPs should
include adequate drills and training to ensure a workable emergency plan. Further, OSHA
recommends that drills be conducted annually. We determined that the FDIC's ERP policy does
not specify the number or type of evacuation drills to be conducted at FDIC facilities. As a
result, there were inconsistencies among the HQ, NYRO, and DRO drills we reviewed, and we
concluded that improvements were needed.

         HQ Drills. The HQ ERP provides that evacuation drills will be conducted twice a year.
However, of the six FDIC facilities in Washington, D.C., and Arlington, Virginia, two drills
were conducted for only the 1776 F Street building in Washington, D.C. The other FDIC
facilities in Washington had one drill during 2005, and none were conducted at the Virginia
Square, Arlington, Virginia, facility. SMS personnel told us that the move to Virginia Square,
beginning in November 2005, eliminated the need for conducting a second drill in 2005 at all the
FDIC buildings except the F Street Building and the Main FDIC building also in Washington,
D.C. Further, the regular fire drills were not conducted at Virginia Square during 2005 because
the building was evacuated numerous times associated with the construction of Virginia Square
Phase II.

According to the District of Columbia Office of the Fire Marshal, the D.C. Fire Code does not
require that the FDIC conduct a specific number of evacuation drills. Further, we did not
identify any federal requirement applicable to the FDIC for the number of evacuation drills to be
conducted. According to the Director, Arlington County Virginia Emergency Operations, the
Arlington County Fire Code requires two drills annually for all high-rise buildings, such as those
at the FDIC’s Virginia Square facility.

The HQ ERP does not include evacuation drill review procedures. However, SMS supervises
the HQ evacuation drills, records the date and time of the drill, and gives the drill an overall
rating. SMS rated all drills conducted in 2005 as good to excellent, except for one evacuation
drill conducted during March 2005 that SMS rated as poor. SMS attributed the poor rating to the
time it took for employees to evacuate and a lack of cooperation by the employees. The rating
form did not include any details on the evacuation or plans for taking corrective action.

         NYRO Drills. Although the NYRO ERP does not include a provision requiring a certain
number of evacuation drills, NYRO conducts three such drills each year. In addition, to comply
with the New York City Fire Code, the building manager hires a contractor to conduct
evacuation drills in January and July each year. To document the drills conducted by the NYRO,
facilities personnel complete a checklist during the evacuation to document the amount of time to
evacuate each floor. Once the drill is completed, FDIC facilities personnel then send out an
e-mail to all staff, discussing the drill and reminding employees to check that their emergency




                                               11
supplies are complete, batteries are charged, and contact lists are current. We found the drills
conducted at the NYRO to be fully documented by facilities personnel.

        DRO Drills. The DRO ERP requires the building manager to conduct evacuation drills
annually but does not address the number of, or process for evaluating, evacuation or shelter-in-
place drills. The Dallas Fire Department permits high-rise office buildings to conduct partial
building evacuation fire drills, and the property manager for Pacific Place (a DRO location)
conducts partial building evacuation exercises quarterly such that each floor of the building has
had an evacuation drill at least once each year. During each drill, personnel from Building
Security, Building Management, FDIC Security, and DOA coordinate in reviewing the success
of the drill. This includes recording observations on a fire drill checklist form for each floor.
For example, the form includes line items as to whether all doors were shut and whether the
evacuation was performed in an orderly manner. Space is available for additional comments.
Based on our review of these checklists, we determined that one evacuation drill per floor was
conducted throughout 2005 at the DRO in compliance with the Dallas Fire Code.

Shelter-in-Place

ERPs should identify shelter-in-place sites and provide guidance on what food and water
supplies to maintain on site for extended shelter-in-place situations. Federal agency guidance,
including OSHA Standards and DOL ODEP guidance, suggests that communicating the
procedures for sheltering-in-place to all building occupants prior to an actual emergency is
important. In addition, the FDIC’s ERP policy provides that HQ and regional offices will
develop ERPs that address shelter-in-place procedures for various incidents.

The NYRO has taken steps to implement shelter-in-place provisions; however, the NYRO ERP
does not include specific procedures for shelter-in-place as do the Headquarters and DRO ERPs.
Also, although each of the facilities we reviewed store emergency food and water for shelter-in-
place, only the DRO ERP provides information on the locations where food and water are stored
and procedures for their maintenance and distribution. As a result, some FDIC employees do not
have all the information available to plan for emergencies and to effectively utilize emergency
supplies.

       HQ Shelter-in-Place. The HQ’s ERP provides detailed shelter-in-place instructions,
including the locations of refuge rooms and procedures for a shelter-in-place drill. Also, in each
HQ building, food and water supplies are maintained in a central location in a locked cabinet.
However, the location of these supplies is known only to SMS personnel and security guards.
The location of food and water is not discussed on the Emergency Web site or in the ERP. SMS
personnel told us that supplies would be distributed as deemed necessary in the event of a
prolonged shelter-in-place situation. They further stated that they base the amount of the food
and water to maintain on criteria from the American Red Cross, which recommends a 3-day
supply. SMS personnel also stated that Security Personnel periodically inventory the emergency
food and water supplies. However, there is no procedure in the ERP for these supplies to be
inventoried to ensure that adequate supplies are maintained and their shelf life has not expired.




                                                12
       NYRO Shelter-in-Place. The NYRO ERP does not provide specific shelter-in-place
procedures identifying refuge rooms or procedures for maintaining food and water supplies.
However, rooms for refuge have been identified, emergency packs have been distributed to all
employees, and emergency food and water are maintained in a locked room along with other
emergency supplies such as blankets and flashlights. Facilities personnel maintain the
emergency food and water supplies based on instructions received from HQ SMS personnel in
March 2003 advising them to maintain a 1-1/2 day supply for 70 percent of the building
population.

        DRO Shelter-in-Place. The DRO ERP provides shelter-in-place instructions, including
the locations of refuge rooms and the locations of food and water supplies. Emergency food and
water supplies are maintained on each floor of the DRO facility in unlocked cabinets identified
with “Emergency Supplies” signs and are located in the restroom corridors on each floor of
building. Additional food and water supplies are located in the Fitness Center on the 1st Floor
and in the Emergency Operations Center located on the 10th and 11th Floors. The DRO ERP
provides that these supplies will be distributed by Floor Wardens and security personnel as
needed. These supplies are available to all employees. DRO follows the American Red Cross
guidance for a 3-day supply. In addition to the food and water supplies, these cabinets contain
flashlights with rechargeable batteries. Although not required by the DRO ERP, DRO facilities
personnel provided us documentation of an inventory of emergency supplies that is conducted
monthly by building security personnel.

First Aid

ERPs should include procedures for handling serious injury or illness and explain how
building occupants can obtain first aid. The GSA Occupant Emergency Program Guide and
OSHA Emergency Action Plans and Procedures recommend that procedures be established for
handling serious injury or illness. Further, the GSA OEP recommends employees be told in
advance how to get first aid, including available medical resources and their location.

The ERP policy does not specifically address how first aid and medical care will be provided to
employees in the event of an emergency. Of the three ERPs we reviewed, only the NYRO ERP
contains information concerning the availability of first aid during an emergency. Additionally,
we found that security guards in all three locations are trained in first aid, cardiopulmonary
resuscitation (CPR), and use of defibulators, but this information is not included in the three
ERPs.

The NYRO ERP discusses general first-aid procedures, emergency medical contact numbers,
building management coordination for ambulance arrival, security guard assistance, and
obtaining CPR. The HQ and DRO ERPs rely on emergency first responders (i.e., fire fighters,
police officers, etc.) to provide first aid. However, emergency first responders may be delayed in
an emergency due to traffic congestion or multiple affected sites. Contract security guards in HQ
and DRO are also trained in first aid and CPR, but they are not addressed in the ERPs as a
resource. Possible use of the contract nurses and dispensaries is also not addressed.
Additionally, the FDIC has cancelled the first aid and CPR training program for FDIC
employees.




                                               13
SMS personnel advised us that although such information is not in the ERP, HQ employees have
been notified by e-mail, on the Security Web site, and in information packets provided during
office relocations to call * 911 in the event of a medical emergency. DRO gives pamphlets that
contain emergency telephone numbers to visitors. The pamphlets are also available in break
rooms throughout the building.

Although these methods of communicating first aid information are beneficial, inclusion of all
available medical resources in the ERPs would provide employees with one consistent source for
emergency-related information. Also, ERPs should address scenarios for providing first aid as
soon as possible in an emergency situation. Immediate medical resources should include
security guards, nurses, dispensaries, CPR-certified FDIC employees, and medical supply kits
that will be immediately available before the arrival of external first responders.

Child-Care Facilities

The ERP should contain an appendix specifically devoted to the child-care center. GSA’s
Occupant Emergency Plan guidance on child care recommends that the ERP for any child-care
center be prominently mentioned in the ERP.

The FDIC’s ERP policy does not address whether the child-care center, located on FDIC
premises, should be included in the ERP. Therefore, the HQ ERP does not include procedures
for the child-care center located on FDIC premises in Washington, D.C. (the DRO and NYRO do
not have child-care facilities). This situation has been complicated because the FDIC has not
received a finalized Emergency Plan from the child-care center’s Board of Directors. As of
July 2006, the child-care center’s Emergency Plan was still in draft – over 1 year after it was
initiated in November 2004. Additionally, although SMS personnel are involved in fire drills
conducted for the facility, the FDIC’s participation in the fire drill is not documented.

The FDIC building at 1776 F Street in Washington, D.C., has a child-care center on the first
floor of the building off the main lobby. This center cares for approximately 80 children ranging
from 6 weeks to 6 years of age. The facility is governed by a private Board of Directors and is
operated by a contractor hired by the Board of Directors. According to the center’s Director, the
center is licensed and inspected by the District of Columbia and, therefore, is required to follow
the regulations for child-care centers in Washington, D.C.

SMS personnel stated that the child-care center is separate from the FDIC and, therefore, SMS is
not involved in the child-care center’s Emergency Plan. SMS personnel stated that the goal of
the child-care center Emergency Plan is to get the children and teachers out of the facility, but
once they step into the lobby of the Headquarters building, they are covered within the scope of
the FDIC ERP. At that point, the FDIC will determine where the children and center staff should
evacuate to. However, the HQ ERP does not discuss the child-care center.

We obtained a copy of the child-care center’s draft Emergency Plan, which contains procedures
to be followed in the event of an emergency. The center Director stated that the plan is still in
draft because it has not been approved by the child-care center Board of Directors. A member of
the Board of Directors expressed that the plan has not been approved because the Board feels




                                               14
that it is not sufficiently comprehensive. For example, the plan does not identify procedures in
the event of a prolonged shelter-in-place. However, the plan does identify evacuation procedures
and the locations for children and staff to be evacuated in the event of an emergency.

The GSA Occupant Emergency Plan guidance on child care recommends that the ERP for any
child-care center be prominently mentioned in the ERP. According to GSA, this is important to
ensure coordination between agency and child-care center personnel. We compared the GSA
Occupant Emergency Plan guidance on child care to the FDIC child-care center’s Emergency
Plan. We found that the Emergency Plan provides basic procedures to be followed in an
emergency; however, the plan is lacking specific details related to the center’s location in the
FDIC building. For example, the plan does not discuss the location of the child-care center in
the F Street building nor provide a description of evacuation routes.

Based on our review of drill dates documented by the child-care center and interviews with SMS
personnel and the Director of the child-care center, we concluded that regular monthly
evacuation drills were conducted for the child-care center and that SMS personnel were involved
in those drills. However, SMS did not document its participation in these drills except for a log
maintained by the contractor showing the dates that drills were conducted and the time it took to
evacuate the facility. The contractor log did not indicate whether the drill was fully successful;
whether significant problems were encountered, such as whether children were left behind; or if
plans were needed for corrective action.

We discussed our results with SMS and child-care center personnel. We were told that the child-
care center Emergency Plan has not been finalized because of turnover in the child-care center’s
Director position four times in the last 2 years and delays due to plan review by the child-care
center’s Board of Directors. SMS personnel and child-care center personnel also stated that
although the Emergency Plan has not been finalized, they have ensured through monthly drills
that all child-care center staff and children are proficient in evacuating the premises and that
parents are aware of the evacuation procedures. SMS personnel added that they are planning for
additional procedures for the FDIC’s relationship with the child-care center in the update to the
ERP. The FDIC will also need an emergency plan for a new child-care center to be opened in
Virginia Square in October 2006.

Disabled Persons

ERPs should include procedures for the evacuation or sheltering of the handicapped and
procedures for persons with varying disabilities (i.e., vision, mobility, developmental, hearing).
According to federal guidance, agencies are to address the emergency preparedness needs of
people with disabilities. Executive Order 13347, Individuals With Disabilities in Emergency
Preparedness, dated July 22, 2004, sets forth policy that executive departments and agencies of
the Federal Government consider, in their emergency preparedness planning, the unique needs of
agency employees with disabilities and individuals with disabilities whom the agency serves.
DOL’s ODEP also issued a publication, Effective Emergency Preparedness Planning:
Addressing the Needs of Employees with Disabilities, dated August 2005, which noted that
emergency preparedness plans should include people with disabilities, and in order to do so




                                               15
effectively, organizations need to establish a process to fulfill requests from individuals with
disabilities for reasonable accommodations they may need in emergency situations.

The FDIC’s ERP policy requires that ERPs address the special needs of the disabled, to include
individuals with mobility, hearing, or visual impairments. Each of the three ERPs we reviewed
instructs persons with permanent or temporary disabilities to contact their supervisor, Floor
Wardens, or security personnel if assistance is required in the event of an emergency. We found
that the HQ ERP also includes guidance and specific procedures for assisting persons with
varying disabilities. However, such guidance and procedures are not included in the regional
office ERPs and are not provided on the HQ emergency Web site. Consequently, information to
assist disabled employees is not readily available for FDIC employees to plan for an emergency.

To determine whether the FDIC’s ERPs provide adequate procedures covering disabled
employees, we reviewed ODEP-suggested guidance for elements to be included in emergency
response planning for employees with disabilities. These considerations include providing
procedures for assisting persons with disabilities, establishing refuge areas and areas of rescue
assistance, and installing alarms for the hearing impaired and tactile signage for those with vision
impairments. We concluded that, in general, the FDIC’s ERPs are consistent with ODEP
guidance; however, the two Regional Office ERPs we reviewed did not address certain ODEP
considerations. Specifically, these ERPs do not contain procedures for assisting persons with
various disabilities. We did note that the HQ ERP addresses such procedures and that the DRO
and the NYRO ERPs contained provisions for buddies or Floor Wardens to assist those with
disabilities. However, the DRO and NYRO ERPs need to contain information for individuals
with disabilities so that disabled persons have guidance allowing them to properly plan for an
emergency situation.


RECOMMENDATIONS

We recommend that the Director, DOA:

(1) Work with senior FDIC executives to establish a strategy for ensuring their public support
for and involvement in ERPs.

(2) Revise the ERP policy and individual ERPs, where appropriate, to address the following
issues discussed in this report:

   •   Documenting management review and approval of ERPs.
   •   Updating ERPs on a regular basis.
   •   Ensuring Floor Marshal/Warden assignments are kept current and Floor
       Marshals/Wardens attend periodic training.
   •   Communicating ERP information to employees.
   •   Implementing an annual, mandatory ERP computer-based training course.
   •   Conducting evacuation drills to include a process for evaluating the drill and obtaining
       employee feedback.




                                                16
   •   Developing instructions for conducting a shelter-in-place and for the location,
       distribution, and maintenance of food, water, and other emergency supplies.
   •   Establishing procedures for handling serious injury or illness and informing employees of
       procedures for obtaining medical supplies and first aid.
   •   Ensuring the FDIC’s ERPs address coordination between the child-care facility and the
       FDIC before, during, and after an emergency.
   •   Developing additional instructions for assisting persons with varying disabilities as is
       included in the HQ ERP.


CORPORATION COMMENTS AND OIG EVALUATION

The Director, DOA, provided a written response, dated September 20, 2006, to a draft of this
report. DOA’s response is presented in its entirety in Appendix II. DOA concurred with both of
our recommendations. With respect to recommendation 1, which involved working with senior
FDIC executives to establish a strategy for ensuring public support for and involvement in ERPs,
we confirmed that DOA’s planned actions would include efforts to increase the involvement, and
visible support of senior FDIC leadership in emergency response planning.

DOA’s planned and initiated actions are responsive, and we consider both recommendations
resolved. However, these recommendations will remain open until we have determined that
agreed-to corrective actions have been completed and are effective. Appendix III presents a
summary of DOA’s responses to our recommendations.




                                              17
                                                                                  APPENDIX I



                      OBJECTIVE, SCOPE, AND METHODOLOGY

Our original objective was to evaluate the extent of the FDIC’s progress in developing and
implementing a comprehensive Emergency Operations Plan, which consists of the BCP and
ERPs. However, we limited the scope of this review to the ERPs. We plan to address the BCP
in a future evaluation.

Our revised objective was to evaluate the extent of the FDIC’s progress in developing and
implementing comprehensive ERPs. The FDIC’s ERP policy is included in FDIC Circular
1500.5, FDIC Emergency Preparedness Program, dated December 28, 2004. Our evaluation
focused on internal aspects of the HQ, NYRO, and DRO ERPs (i.e., protection and safety of
FDIC people and facilities) and not the external and interagency aspects. Our review also
included an evaluation of Circular 1500.5, Section 6.c, which addresses ERP responsibilities and
program guidelines. We conducted our evaluation from November 2005 through July 2006 in
accordance with generally accepted government auditing standards.

To accomplish our objective, we performed the following:

•   Reviewed the ERPs for HQ, dated September 12, 2003; for NYRO, dated December 1, 2005;
    and for DRO, dated January 1, 2006.
•   Reviewed FDIC Circular 1500.5, FDIC Emergency Preparedness Program, dated
    December 28, 2004, which serves as the official policy for HQ and regional offices in
    developing, implementing, and maintaining an FDIC Emergency Preparedness Program,
    comprised of an ERP and BCP.
•   Reviewed the HQ ERP shown on the FDIC’s emergency response Web site.
•   Reviewed Circular 1500.5 and the HQ, NYRO, and DRO ERPs to determine whether they
    included selected items from the following federal agency guidance:
            • FEMA FPC 65 Federal Executive Branch Continuity of Operations.
            • GSA Occupant Emergency Program Guide, including child-care center guidance.
            • OSHA Standard 1910.38, Emergency Action Plans.
            • DOL-ODEP guidance, Effective Emergency Planning: Addressing the Needs of
               Employees with Disabilities.

We also reviewed the following guidance:

           •   President’s Council on Integrity and Efficiency, Inspections and Evaluations
               Roundtable, draft, Guide for Inspectors General on the Evaluation of Agency
               Emergency Preparedness under the National Incident Management System
               Framework (revised February 7, 2006).

•   Reviewed the HQ, NYRO, and DRO emergency response programs to determine whether
    they include selected best practices identified from the same federal agency guidance listed
    above.




                                               18
                                                                                   APPENDIX I



•   Reviewed the HQ, NYRO, and DRO ERPs and programs for the following:

           •   Evacuation and shelter-in-place drills
           •   Floor Warden assignments and training
           •   Procedures for disabled employees
           •   Food and water supplies
           •   Communication of ERPs to FDIC employees
           •   Coordination with other agencies
           •   Security guard roles
           •   First responders and first aid
           •   Procedures for updating ERPs
           •   Web site information
           •   Child-care facilities

•   Reviewed FDIC division ERPs included in the appendix to the HQ ERP to determine
    whether the ERPs are up-to-date, complete, and consistent.
•   Reviewed DOA Corporate Customer Satisfaction Survey results relative to emergency
    response preparedness.
•   Interviewed the following individuals to gain an understanding of the HQ, NYRO, and DRO
    ERPs:
           • Assistant Director, SMS, DOA
           • Chief, Transportation Unit, DOA HQ
           • Securiguard Personnel
           • DOA Regional Manager, NYRO; and Corporate Services Branch managers and
              other personnel at the NYRO and DRO.
           • Director, FDIC child-care center
           • Board Member, FDIC child-care center

Our review did not include an assessment of the effectiveness of the HQ, NYRO, and DRO
responses in the event of an actual emergency.

Internal Management Controls

We evaluated the effectiveness of controls in place for the implementation of the FDIC’s
emergency response process. These controls included the policies and procedures for the
development, approval, maintenance, and testing of the FDIC’s emergency response plans. In
the absence of written policies, we relied on interviews and information obtained from the
Assistant Director, SMS, who is responsible for the FDIC’s ERPs, as well as other SMS officials
and NYRO and DRO representatives.

Compliance with Laws and Regulations

We identified the following various laws, regulations, presidential directives, and agency
guidance that were of potential relevance to this evaluation and obtained legal guidance on their
applicability to the FDIC.



                                               19
                                                                                   APPENDIX I



               •     The Homeland Security Act.
               •     The Homeland Security Presidential Directives (Hspd):
                       • Hspd-3 Homeland Security Advisory System, dated March 11, 2002
                       • Hspd-5 Management of Domestic Incidents, dated February 28, 2003
                       • Hspd-7 Critical Infrastructure Identification, Prioritization, and
                          Protection, dated December 17, 2003
                       • Hspd-8 National Preparedness, dated December 17, 2003
           •       Department of Homeland Security’s National Incident Management System and
                   National Response Plan.
           •       FEMA FPC 65, Federal Executive Branch Continuity of Operations.
           •       OSHA Standard 1910.38, Emergency Action Plans.
           •       GSA Occupant Emergency Program Guide, including child-care center guidance.
           •       DOL-ODEP publication, Effective Emergency Planning: Addressing the Needs of
                   Employees with Disabilities.
           •       Executive Order 13347, Individuals With Disabilities in Emergency
                   Preparedness, dated July 22, 2004.

Some of the legal authorities, particularly the National Response Plan and the National Incident
Management System, dealt with external or interagency aspects of emergency response planning
while this evaluation focused on the internal aspects of the ERPs (protecting FDIC employees
and persons on FDIC property). Areas for improving compliance with the legal authorities or
guidance that pertains to the internal aspect of emergency response planning are noted
throughout the report.

Regarding the legal authorities or guidance cited in the report, the FDIC’s policy is to be
consistent with the requirements of FPC 65; the guidance from OSHA, GSA, and DOL is not
binding on the FDIC, but we are presenting them as best practices for the FDIC to consider.
Executive Order 13347 sets forth general policies that would be prudent for the FDIC to consider
when performing its emergency-preparedness planning relative to individuals with disabilities.

Government Performance and Results Act, Computer-Based Data, and Fraud or Illegal
Acts

The Government Performance and Results Act of 1993 directs federal agencies to develop a
strategic plan, align agency programs and activities with concrete missions and goals, manage
and measure results, and design budgets that reflect strategic missions. We confirmed that the
FDIC Strategic Plan 2005-2010, FDIC 2005 Annual Performance Plan, and FDIC 2006 Annual
Performance Plan include references to or initiatives related to the FDIC’s Emergency
Preparedness Program, which we considered as part of our evaluation of management’s support
for ERP.

We did not rely on the accuracy of computer-based data to perform this evaluation. Not performing
assessments of computer-based data did not affect the results of our evaluation.

Our evaluation program included steps for providing reasonable assurance of detecting fraud or
illegal acts, and none were detected.


                                                20
Appendix II
     APPENDIX II




22
     APPENDIX II




23
     APPENDIX II




24
     APPENDIX II




25
                                                                                                                   APPENDIX III




                                    MANAGEMENT RESPONSES TO RECOMMENDATIONS


This table presents the management responses on the recommendations in our report and the status of the recommendations as of the
date of report issuance.


 Rec.           Corrective Action: Taken or Planned/Status                Expected        Monetary   Resolved: a    Open or
Number                                                                 Completion Date    Benefits   Yes or No      Closedb
  1         FDIC senior management has taken steps to increase
            awareness and preparedness among FDIC staff by             October 30, 2006      $0            Yes       Open
            establishing comprehensive policy and plans, strategic
            planning initiatives, table top exercises and Quarterly
            Status Reports for the Emergency Preparedness
            Program. The FDIC will continue to stress to all senior
            managers the importance of the ERP and ask them to
            include emergency preparedness in their discussions at
            various division and office meetings as a way to
            increase awareness.

            We also confirmed that DOA’s planned actions would
            include efforts to increase the involvement, and visible
            support, of senior FDIC leadership in emergency
            response planning.

    2       DOA will take actions related to each of the areas
            identified in the recommendation, including:               October 30, 2006      $0      Yes           Open

            •   documenting management review and approval of
                ERPs;
            •   updating ERPs on a regular basis;
            •   ensuring Floor Marshal/Warden assignments are
                kept current;
            •   communicating ERP information to employees;


                                                                       26
                                                                                                                                               APPENDIX III



     Rec.             Corrective Action: Taken or Planned/Status                     Expected                Monetary          Resolved: a     Open or
    Number                                                                        Completion Date            Benefits          Yes or No       Closedb
                 •    implementing an annual, mandatory ERP
                      computer-based training course;
                 •    conducting evacuation drills to include a process
                      for evaluating drills and obtaining employee
                      feedback;
                 •    developing instructions for conducting a shelter-in-
                      place and for the location, distribution, and
                      maintenance of energy and supplies;
                 •    establishing procedures for handling serious injury
                      or illness and informing employees of procedures
                      for obtaining medical supplies and first aid;
                 •    ensuring the FDIC’s ERPs address coordination
                      between the child-care center and the FDIC; and
                 •    developing additional instructions for assisting
                      persons with varying disabilities.
a
    Resolved: (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                  as management provides an amount.
b
    Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.




                                                                                  27
